N o. 2 0 -1 5 9 8

I n the S u pre me C o urt of t he U nite d St ate s
__________

P

R OJ E C T

V

E RI T A S

A

C TI O N

F

U N D

, P etiti o n e r

v.
R A C H A E L S. R O L L I N S , i n h e r offi ci al c a p a cit y a s
Di st ri ct Att o r n e y f o r S uff ol k C o u nt y, M a s s a c h u s ett s
__________
O n P etiti o n fo r a W rit o f C e rti o r a ri
to th e U nit e d St at e s C o u rt of A p p e al s
f o r t h e Fi r st Ci r c uit
__________
B R I E F O F P R O T E C T T H E 1 S T , I N C.
A S A MI C U S C U RI A E
S U P P O R TI N G P E TI TI O N E R
__________
G E N E C. S C H A E R R
C o u n s el of R e c o r d
E R I K S. J A F F E
H. C H R I S T O P H E R B A R T O L O M U C C I
H A N N A H C. S M I T H
K A T H R Y N E. T A R B E R T
J O S H U A J . P RI N C E
SC H A E R R |JAFF E L L P
1 7 1 7 K St r e et, N W, S uit e 9 0 0
W a s hi n gt o n, D C 2 0 0 0 6
( 2 0 2) 7 8 7-1 0 6 0
g s c h a e r r @ s c h a e r r -j aff e. c o m

Q U E S TI O N S P R E S E N T E D
T h e q u e sti o n s p r e s e nt e d a r e:
1. W h et h e r t h e Fi r st Ci r c uit e r r e d i n h ol di n g — i n
di r e ct c o nfli ct wit h t h e Illi n oi s S u p r e m e C o u rt a n d i n
c o nfli ct wit h f o u r ot h e r ci r c uit c o u rt s of a p p e al s — t h at
a r e c o r di n g l a w w hi c h m a k e s it a f el o n y f o r i n di vi d u al s
t o s e c r etl y r e c o r d u n d e r a n y ci r c u m st a n c e s i s n ot
f a ci all y o v e r b r o a d u n d e r t h e Fi r st A m e n d m e nt.
2. W h et h e r t h e Fi r st Ci r c uit e r r e d i n h ol di n g — i n
di r e ct c o nfli ct wit h fi v e ot h e r ci r c uit c o u rt s of
a p p e al s — t h at a p a rt y c h all e n gi n g a s p e e c h s u p p r e s si v e l a w h a s t h e b u r d e n t o p r e ci s el y a rti c ul at e
e v e r y t y p e of c o nt e m pl at e d s p e e c h a cti vit y t o s ati sf y
ri p e n e s s f o r a s -a p pli e d c h all e n g e s.

ii
T A B L E O F C O N T E N TS
Q U E S T I O N S P R E S E N T E D ............................................. i
T A B L E O F C O N T E N T S ...................................................ii
T A B L E O F A U T H O R I T I E S ............................................iii
I N T R O D U C T I O N A N D I N T E R E S T O F A M I C U S ..... 1
A D DI TI O N A L R E A S O N S T O G R A N T T H E
P E T I T I O N ............................................................................ 4
I.

If I n di vi d u al s A r e B a r r e d f r o m R e c o r di n g P u bli c
E v e nt s, M a n y N e w s w o rt h y E v e nt s Will R e m ai n
U n k n o w n o r I n a d e q u at el y U n d e r st o o d. ............... 4

I I. If B a r r e d f r o m M a ki n g U n di s cl o s e d R e c o r di n g s,
t h e P u bli c Will L o s e a n I m p o rt a nt P r ot e cti o n
A g ai n st C ri m e a n d Ot h e r W r o n g d oi n g. ............. 1 1
I I I. Li k e L a w s i n M a n y Ot h e r J u ri s di cti o n s,
M a s s a c h u s ett s’ s L a w C ri mi n ali z e s B e h a vi o r t h at
i s C o m m o n pl a c e i n O u r T e c h n ol o g y-S at u r at e d
S o ci et y. ................................................................. 1 3
C O N C L U S I O N .................................................................. 1 6

iii
T A B L E O F A U T H O RI TI E S
C as es
H o u c hi n s v. K Q E D, I n c. , 4 3 8 U. S. 1 ( 1 9 7 8) .............. 1 0
N at’l B a n k of B o st o n v. B ell otti ,
4 3 5 U. S. 7 6 5 ( 1 9 7 8) .................................................. 4
T a h v. Gl o b al Wit n e s s P u bl’ g, I n c. , 9 9 1 F. 3 d 2 3 1 ( D. C.
Ci r. 2 0 2 1) .................................................................. 8
St at ut e s
M a s s. G e n. L a w s c h. 2 7 2, § 9 9 .................................... 3
O t h e r A u t h o ri ti e s
A d ri e n n e R u s s ell, J o u r n ali s m a s A cti vi s m: R e c o di n g
M e di a P o w e r ( 2 0 1 6) ................................................. 7
A u sti n B e r g, Illi n oi s 1 3 -Y e a r -Ol d C h a r g e d wit h
E a v e s d r o p pi n g F el o n y f o r R e c o r di n g M e eti n g wit h
P ri n ci p al , Ill. P ol’ y ( J u n e 2 1, 2 0 1 8) ....................... 1 4
B’ T s el e m’ s C a m e r a P r oj e ct, B’ T e s el e m ....................... 7
B a r r y Si m m s, M o m F a c e s F el o n y Wi r et a p pi n g
C h a r g e s Aft e r R e c o r di n g C o n v e r s ati o n wit h
P ri n ci p al , W B A L T V ( D e c. 7, 2 0 1 7, 1 0: 4 2 A M)...... 1 4
C. T h o m a s Di e n e s, P r ot e cti n g I n v e sti g ati v e
J o u r n ali s m , 6 7 G e o. W a s h. L. R e v. 1 1 3 9
( 1 9 9 9) .............................................................. 5, 6, 1 0
D a n n y R o b bi n s, H e W a s C a u g ht o n Vi d e o, b ut
G e o r gi a D o ct o r K e pt Hi s M e di c al Li c e n s e , Atl a nt a
J. C o n st. ( A p r. 2 7, 2 0 1 8) ........................................ 1 1
D a vi d A. F a h r e nt h ol d, T r u m p R e c o r d e d H a vi n g
E xt r e m el y L e w d C o n v e r s ati o n A b o ut W o m e n I n
2 0 0 5 , T h e W a s hi n gt o n P o st ( O ct. 8, 2 0 1 6) .............. 9

iv
I a n B ell, W e R e c r e at e d t h e C a pit ol Ri ot T h r o u g h
C ell p h o n e Vi d e o s a n d It’ s T e r rif yi n g , V I C E ( A p ril
1 4, 2 0 2 1, 9: 0 4 A M) ................................................... 9
J a s o n R a nt z, H e r e’ s H o w A ntif a U s e s T witt e r t o
T h r e at e n M e a n d t h e M e di a , F o x N e w s ( F e b. 2,
2 0 2 1) ......................................................................... 7
J e s s e Ei si n g e r, T h e M a n W h o Bl e w t h e W hi stl e o n
H alli b u rt o n , T h e Atl a nti c ( A p r. 2 3, 2 0 1 5) ............ 1 2
J o h n J. D o u g h e rt y, O b si di a n Fi n a n ci al G r o u p, L L C
v. C o x a n d R ef o r m ul ati n g S hi el d L a w s t o P r ot e ct
Di git al J o u r n ali s m i n a n E v ol vi n g M e di a W o rl d ,
1 3 N. C. J. L. & T e c h. O n. 2 8 7 ( 2 0 1 2) ...................... 1 0
K at e B ul kl e y, T h e Ri s e of Citi z e n J o u r n ali s m , T h e
G u a r di a n ( J u n e 1 0, 2 0 1 2) ........................................ 7
K at h a ri n e M. Vill al o b o s, Di git al O p p r e s si o n i n C u b a
a n d C hi n a: A C o m p a r ati v e St u d y of I C C P R
Vi ol ati o n s , 2 4 J. T r a n s n at’l L. & P ol’ y 1 6 1 ( 2 0 1 5) .. 8
L y ri s s a C. B a r n ett, N ot e, I nt r u si o n a n d t h e
I n v e sti g ati v e R e p o rt e r , 7 1 T e x. L. R e v. 4 3 3 ( 1 9 9 2) . 6
P a’ s Wi r et a p pi n g L a w i s T o o R e st ri cti v e , Y o r k D ail y
R e c. ( A u g. 2 2, 2 0 1 6, 9: 2 7 A M) ............................... 1 4
P at ri c k F r y e, Di s a bl e d B o y R e c o r d s B ulli e s
T o r m e nti n g Hi m, P oli c e C h a r g e Hi m wit h Ill e g al
Wi r et a p pi n g , I n q ui sit r ( N o v. 1 7, 2 0 1 6) ................. 1 4
P h o n e f o ot a g e r e v e al s c h a oti c s c e n e s i n si d e U S
C a pit ol , B B C N e w s ( J a n. 7, 2 0 2 1) ........................... 9
P ott e r St e w a rt, O r of t h e P r e s s , 2 6 H a sti n g s L. J. 6 3 1
( 1 9 7 5) ...................................................................... 1 0

v
R a u vi n J o hl, R e a s s e s si n g Wi r et a p a n d E a v e s d r o p pi n g
St at ut e s: M a ki n g O n e -P a rt y C o n s e nt t h e D ef a ult ,
1 2 H a r v. L. & P ol’ y R e v. 1 7 7 ( 2 0 1 8) ...................... 1 3
Ri c k L e e, J u d g e O r d e r s Wi r et a p pi n g C h a r g e
Di s mi s s e d A g ai n st U ni lif e W hi stl e-Bl o w e r , Y o r k
D ail y R e c. ( J ul y 8, 2 0 1 5, 8: 3 0 P M) ........................ 1 5
R o b L e v e r, S o ci al M e di a C h a n gi n g P e r c e pti o n of
P oli ci n g , A r a b N e w s ( J ul y 1 0, 2 0 1 6) ....................... 7
S a r a h A s h, S U St u d e nt F a ci n g F el o n y C h a r g e s f o r
Wi r e T a p pi n g , W M D T ( F e b. 1 4, 2 0 1 9) .................. 1 4
S a r a h M o r g a d o, F r o m “ H e S ai d, S h e S ai d” t o “ H e
S ai d, S h e -a n d -H e r -I p h o n e -S ai d”: Fl o ri d a’ s All P a rt y C o n s e nt R e q ui r e m e nt N e e d s a n U p d at e , 1 4
F I U L. R e v. 6 7 7 ( 2 0 2 1) ........................................... 1 1
S e c r et R e c o r di n g s R e v e al Fl a w e d D e at h
I n v e sti g ati o n , F O X 9 K M S P ( N o v. 1 6, 2 0 1 6, 3: 5 3
P M) ......................................................................... 1 2
S h a r o n K a n n, St ef a ni e L, S e r gi o M u n o z & Li s P o w e r,
Ri g ht -wi n g M e di a E c o s y st e m h a s D o mi n at e d t h e
N ati o n al I m mi g r ati o n N a r r ati v e , M e di a M att e r s
f o r A m e ri c a ( A p ril 2 9, 2 0 2 1) .................................... 8
S u z a n n e G a r m e nt, S c a n d al: T h e C ult u r e of Mi st r u st
i n A m e ri c a n P oliti c s ( 1 9 9 2)...................................... 8
T u x T u r k el, S e c r et R e c o r di n g s P oi nt t o I m p r o p e r
I nfl u e n c e b y T o p U M ai n e Offi ci al i n L u c r ati v e
P o w e r C o nt r a ct , P o rtl a n d P r e s s H e r al d ............... 1 2
U pt o n Si n cl ai r, W h o s e M u c k r a ki n g C h a n g e d t h e
M e at I n d u st r y , T h e N e w Y o r k Ti m e s ( J u n e 3 0,
2 0 1 6) ......................................................................... 5

I N T R O D U C TI O N A N D I N T E R E S T O F A MI C U S

1

A mi c u s P r ot e ct t h e 1 st , I n c. ( P T 1) i s a n o n p r ofit,
n o n p a rti s a n
o r g a ni z ati o n
t h at
a d v o c at e s f o r
p r ot e cti n g Fi r st A m e n d m e nt ri g ht s i n all r el e v a nt
s etti n g s. P T 1 t h u s d ef e n d s t h e s p e e c h a n d a s s o ci ati o n
ri g ht s of p e o pl e f r o m a c r o s s t h e i d e ol o gi c al s p e ct r u m,
i n cl u di n g p e o pl e w h o m a y n ot e v e n a g r e e wit h t h e
o r g a ni z ati o n’ s vi e w s .
T hi s c a s e i s of p a rti c ul a r c o n c e r n t o P T 1 b e c a u s e it
i n v ol v e s a c o n stit uti o n al c h all e n g e t o a M a s s a c h u s ett s
l a w t h at hi n d e r s c o r e Fi r st A m en d m e nt ri g ht s .
S p e cifi c all y, t h e l a w g ut s t h e a bilit y of j o u r n ali st s a n d
citi z e n s ali k e t o e n g a g e i n a f o r m of n e w s g at h e ri n g b y
r e c o r di n g i n di vi d u al s u n a w a r e s , e v e n i n p u bli c. T h e
l a w d o e s s o b y m a ki n g it ill e g al f o r a n y o n e b ut l a w
e nf o r c e m e nt offi c e r s t o r e c o r d ot h e r s wit h o ut t h ei r
p e r mi s si o n.
T h e p etiti o n ( at 1 1 -3 9 ) cl e a rl y e x pl ai n s h o w t h e
d e ci si o n b el o w i s i n c o r r e ct i n it s r e s ol uti o n of ri p e n e s s,
o v e r b r e a dt h a n d a s -a p pli e d Fi r st A m e n d m e nt i s s u e s
p r e s e nt e d h e r e . A n d P etiti o n e r’ s p r o p o s al — w hi c h
w o ul d all o w t h e u n di s cl o s e d r e c o r di n g of g o v e r n m e nt
offi ci al s p u bli cl y p e rf o r mi n g t h ei r offi ci al f u n cti o n s, a s
P etiti o n e r w a s gi v e n n oti c e m o r e t h a n 1 0 d a y s b ef o r e — a n d
c o n s e nt e d t o — t h e fili n g of t hi s b ri ef . R e s p o n d e nt w a s gi v e n
n oti c e l e s s t h a n 1 0 d a y s b ef o r e fili n g b ut c o n s e nt e d t o t h e fili n g
a n d h a s si n c e w ai v e d it s ri g ht t o fil e a b ri ef i n o p p o siti o n . N o
c o u n s el f o r a p a rt y a ut h o r e d t hi s b ri ef i n w h ol e o r i n p a rt, n o r di d
a n y p e r s o n o r e ntit y, ot h e r t h a n P T 1 a n d it s c o u n s el, m a k e a
m o n et a r y c o nt ri b uti o n t o f u n d it s p r e p a r ati o n o r s u b mi s si o n. P T 1
i s n ot p u bli cl y t r a d e d a n d h a s n o p a r e nt c o r p o r ati o n s, a n d n o
p u bli cl y t r a d e d c o r p o r ati o n o w n s 1 0 % o r m o r e of A mi c u s .
1

2
w ell a s p ri v at e i n di vi d u al s w h e n t h e y h a v e n o
r e a s o n a bl e e x p e ct ati o n of p ri v a c y — p r o p e rl y b al a n c e s
Fi r st A m e n d m e nt a n d p ri v a c y c o n c e r n s. S e e A p p. 4 -5.
A mi c u s w rit e s s e p a r at el y t o p r o vi d e a d diti o n al ,
p r a cti c al r e a s o n s w h y r e vi e w s h o ul d b e g r a nt e d.
S p e cifi c all y, A mi c u s p r o vi d e s a d diti o n al e x a m pl e s of
i m p o rt a nt r e c o r di n g s of p u bli c e v e nt s t h at w o ul d h a v e
b e e n ill e g al u n d e r t h e M a s s a c h u s ett s l a w h e r e a n d
si mil a r l a w s a r o u n d t h e c o u nt r y . If i n di vi d u al s a r e
d e ni e d t h e a bilit y t o r e c o r d s u c h p u bli c e v e nt s — a n d
n ot e v e n all o w e d t o c h all e n g e s u c h d e ci si o n s b ef o r e t h e
i n di vi d u al h a s b e e n p r o s e c ut e d— m a n y n e w s w o rt h y
a cti o n s will eit h e r r e m ai n u n k n o w n t o o r n ot f ull y
u n d e r st o o d b y t h e p u bli c. A n d citi z e n s will l o s e a n
i m p o rt a nt p r ot e cti o n a g ai n st a n d d et e r r e nt t o
c ri mi n al a cti vit y.
A d diti o n all y, A mi c u s w rit e s t o hi g hli g ht t h at t h e
M a s s a c h u s ett s l a w a n d ot h e r s li k e it c ri mi n ali z e
b e h a vi o r t h at i s c o m m o n pl a c e i n o u r i n c r e a si n gl y
t e c h n ol o g y-s at u r at e d s o ci et y. T h at i s
a n ot h e r
i m p o rt a nt r e a s o n t h at g o v e r n m e nt s a n d citi z e n s
n ati o n wi d e b a dl y n e e d t hi s C o u rt’ s g ui d a n c e a s t o
w h e n r e c o r di n g s m a d e b y p ri v at e i n di vi d u al s o r
e ntiti e s a r e a n d a r e n ot p r ot e ct e d b y t h e Fi r st
A m e n d m e nt , a n d g r e at e r cl a rit y a s t o
w he n
r e st ri cti o n s o n s u c h r e c o r di n g s c a n b e c h all e n g e d i n
f e d e r al c o u rt.
F o r t h e r e a s o n s st at e d i n t h e p etiti o n, a n d f o r t h e s e
a d diti o n al r e a s o n s , t h e p etiti o n s h o ul d b e g r a nt e d.

3
S T A T E M E N T
T hi s i s t h e l at e st i n a l o n g li n e of c a s e s a d d r e s si n g
t h e i nt e r s e cti o n of Fi r st A m e n d m e nt ri g ht s wit h
p ri v a c y i nt e r e st s i n li g ht of a d v a n ci n g t e c h n ol o g y. A
M a s s a c h u s ett s r e g ul ati o n k n o w n a s S e cti o n 9 9 m a k e s
it ill e g al f o r a n y o n e b ut l a w e nf o r c e m e nt offi c e r s t o
r e c o r d ot h e r s wit h o ut t h ei r p e r mi s si o n. M a s s. G e n.
L a w s c h. 2 7 2, § 9 9 . P etiti o n e r i s a m e di a o r g a ni z ati o n
d e di c at e d t o “ u n d e r c o v e r i n v e sti g ati v e j o u r n ali s m .”
A p p. at 4 . It i nt e n d s to e n g a g e i n s u c h s e c r et a u di o
r e c o r di n g i n M a s s a c h u s ett s b ut f e a r s d oi n g s o w o ul d
e x p o s e it t o c ri mi n al a n d ci vil li a bilit y u n d e r S e cti o n
9 9. A p p. at 1 0 5 -1 0 6. A c c o r di n gl y, i n 2 0 1 7, P etiti o n e r
fil e d s uit i n t h e l o c al U . S. di st ri ct c o u rt, a r g ui n g t h at
t h e re st ri cti o n s vi ol at e d t h e Fi r st A m e n d m e nt .
T h at c o u rt g r a nt e d s u m m a r y j u d g m e nt t o
P etiti o n e r o n it s cl ai m t h at , a s a p pli e d t o s e c r et a u di o
r e c o r di n g of g o v e r n m e nt offi ci al s di s c h a r gi n g t h ei r
d uti e s i n p u bli c , S e cti o n 9 9 vi ol at e s t h e Fi r st
A m e n d m e nt . A p p. 5. B ut it di s mi s s e d P etiti o n e r’ s
cl ai m s c h all e n gi n g t h e st at ut e a s a p pli e d t o t h e s e c r et
a u di o r e c o r di n g of p ri v at e i n di vi d u al s a n d c h all e n gi n g
t h e st at ut e a s a w h ol e f o r b ei n g o v e r b r o a d. I bi d . T h e
Fi r st Ci r c uit affi r m e d t h e di st ri ct c o u rt’ s di s mi s s al of
t h e o v e r b r e a dt h c h all e n g e b ut h el d t h at t h e ot h e r t w o
cl ai m s — r e g a r di n g t h e r e c o r di n g of g o v e r n m e nt
offi ci al s o r ot h e r i n di vi d u al s — w e r e n ot ri p e f o r r e vi e w.
T h e c o u rt t h u s v a c at e d t h e r uli n g s o n t h o s e i s s u e s a n d
r e m a n d e d wit h i n st r u cti o n s t o di s mi s s t h o s e cl ai m s
wit h o ut p r ej u di c e. I bi d .

4
A D DI TI O N A L R E A S O N S
T O G R A N T T H E P E TI TI O N
I.

If I n di vi d u al s A r e B a r r e d fr o m R e c o r d i n g
P u bli c E v e n t s, M a n y N e w s w o r t h y E v e n t s
W ill R e m ai n U n k n o w n o r
I n a d e q u a t el y
U n d e r st o o d .

T hi s C o u rt h a s r e c o g ni z e d t h at “ t h e Fi r st
A m e n d m e nt g o e s b e y o n d p r ot e cti o n of t h e p r e s s a n d
t h e s elf-e x p r e s si o n of i n di vi d u al s t o p r o hi bit
g o v e r n m e nt f r o m li miti n g t h e st o c k of i nf o r m ati o n
f r o m w hi c h m e m b e r s of t h e p u bli c m a y d r a w.” Fi r st
N at’l B a n k of B o s t o n v. B ell otti , 4 3 5 U. S. 7 6 5, 7 8 3
(1 9 7 8) ( e m p h a si s a d d e d). T h e a bilit y of t h e citi z e n r y t o
g at h e r, s h a r e, a n d r e c ei v e i nf o r m ati o n a b o ut e v e nt s of
p u bli c i nt e r e st i s oft e n e s s e nti al f o r t h e p r o p e r
f u n cti o ni n g of i n di vi d u al s a n d g r o u p s i n ci vil s o ci et y,
a n d i n t h ei r a bilit y t o m a k e i nf o r m e d d e ci si o n s i n b ot h
t h ei r p u bli c a n d p ri v at e c a p a citi e s.
B y s e v e r el y
r e st ri cti n g t h e a bilit y of citi z e n s t o c h all e n g e l a w s t h at
r e st ri ct t h ei r a bilit y t o g at h e r a n d s h a r e i m p o rt a nt
i nf o r m ati o n, t h e d e ci si o n b el o w t r a m pl e s Fi r st
A m e n d m e nt ri g ht s a n d e vi s c e r at e s t h e s a niti zi n g a n d
p r ot e cti v e eff e ct s of “ s u nli g ht” f o r s o m e of s o ci et y’ s
m o st v ul n e r a bl e . I n d e e d, t h e e x a m pl e s a r e l e gi o n of
j o u r n ali st s o r citi z e n s r e c o r di n g n e w s w o rt h y e v e nt s,
oft e n i n v ol vi n g a b u si v e b e h a vi o r b y g o v e r n m e nt o r
p ri v at e a ct o r s, wit h o ut s e e ki n g t h e p e r mi s si o n of t h o s e
t h e y w e r e r e c o r di n g . B ut u n d e r M a s s a c h u s ett s l a w , all
of t h o s e r e c o r di n g s w o ul d h a v e b e e n ill e g al , a n d t h e
v al u a bl e i nf o r m ati o n t h e y c o nt ai n w o ul d b e l o st t o
h u m a n k n o wl e d g e.
1. A m e ri c a n j o u r n ali s m h a s a l o n g a n d h o n o r e d
hi st o r y of u si n g u n d e r c o v e r m e a n s t o e x p o s e t h e ill e g al

5
o r t h e d a n g e r o u s . P e r h a p s t h e pi o n e e r of u n d e r c o v e r
i n v e sti g ati v e j o u r n ali s m w a s N elli e Bl y, a N e w Y o r k
W o rl d r e p o rt e r i n t h e l at e 1 9 t h a n d e a rl y 2 0 t h
c e nt u ri e s , w h o a ri v al n e w s p a p e r c all e d “t h e b e st
r e p o rt e r i n A m e ri c a .” S e e C. T h o m a s Di e n e s,
P r ot e cti n g I n v e sti g ati v e J o u r n ali s m , 6 7 G e o. W a s h. L.
R e v. 1 1 3 9, 1 1 4 1 -1 1 4 2 ( 1 9 9 9). S h e f a m o u sl y p r et e n d e d
t o b e m e nt all y ill t o b e a d mitt e d t o a w o m e n’ s “ L u n ati c
A s yl u m ,” a n d h e r p u bli s h e d p o rt r a y al of t h e a b u s e t h e
p ati e nt s s uff e r e d t h e r e r e s ult e d i n a g r a n d j u r y
i n v e sti g ati o n a n d, ulti m at el y, r ef o r m. I bi d . I n l at e r
j o u r n ali sti c e n d e a v o r s s h e w o ul d al s o p o s e “ a s a m ai d
t o e x p o s e a b u s e s b y e m pl o y m e nt a g e n ci e s, a s a n
u n w e d m ot h e r t o i n v e sti g at e t r affi c ki n g i n n e w b o r n s,
a n d a s a p ati e nt t o i n v e sti g at e t h e q u ali ty of m e di c al
c a r e at cit y h e alt h c e nt e r s.” I d . at 1 1 4 2 ( cl e a n e d u p).
Si mil a rl y, U pt o n Si n cl ai r w r ot e T h e J u n gl e aft e r
g oi n g u n d e r c o v e r a s a
w o r k e r i n a C hi c a g o
sl a u g ht e r h o u s e. I bi d . T h at b o o k p r o m pt e d t h e
a d o pti o n of f e d e r al f o o d a n d d r u g l e gi sl ati o n. I bi d .2
T h e s e j o u r n ali sti c p r a cti c e s , d e si g n e d t o s h e d li g ht
w h e r e li g ht ot h e r wi s e w o ul d n ot s hi n e , n ot o nl y
c o nti n u e d i nt o t h e mi d dl e of t h e 2 0t h c e nt u r y, b ut
g a r n e r e d j o u r n ali s m’ s m o st p r e sti gi o u s r e c o g niti o n.
F o r e x a m pl e, t h e B uff al o N e w s w o n a P ulit z e r P ri z e
S e e al s o U pt o n Si n cl ai r, W h o s e M u c k r a ki n g C h a n g e d t h e
M e at I n d u st r y , T h e N e w Y o r k Ti m e s ( J u n e 3 0, 2 0 1 6) .
htt p s:// w w w. n yti m e s. c o m/i nt e r a cti v e/ p r oj e ct s/ c p/ o bit u a ri e s/ a r c hi
v e s/ u pt o n -si n cl ai r -m e at -i n d u st r y (“ Si n cl ai r’ s n o v el ‘ T h e J u n gl e’
* * * h el p e d s p u r t h e p u bli c o ut r a g e t h at l e d t o” “ P r e si d e nt
T h e o d o r e R o o s e v elt si g n[i n g] t w o hi st o ri c bill s ai m e d at
r e g ul ati n g t h e f o o d a n d d r u g i n d u st ri e s i nt o l a w o n J u n e 3 0,
1 9 0 6.”) .
2

6
f o r it s u n d e r c o v e r n e w s st o ri e s o n a c o u nt y w elf a r e
d e p a rt m e nt; a n d t h e C hi c a g o T ri b u n e li k e wi s e w o n a
P ulit z e r f o r a s e ri e s of a rti cl e s o n v oti n g i r r e g ul a riti e s
w h e n o n e of it s r e p o rt e r s c o n c e al e d hi s i d e ntit y t o
o bt ai n a p o siti o n o n t h e C hi c a g o el e cti o n s b o a r d. S e e
Di e n e s, P r ot e cti n g I n v e sti g ati v e J o u r n ali s m , at 1 1 4 2.
T hi s ri c h a n d r e s p e ct e d j o u r n ali sti c t r a diti o n
a d a pt e d t o n e w t e c h n ol o g y. T h u s, i n 1 9 6 8, 6 0 Mi n ut e s
st a rt e d o n t el e vi si o n , u si n g i n v e sti g ati v e j o u r n ali s m
a n d u n d e r c o v e r c a m e r a s a g g r e s si v e l y. S e e i bi d. T hi s
s p a w n e d si mil a r t el e vi si o n n e w s p r o g r a m s , s u c h a s
2 0 / 2 0 a n d I n si d e E diti o n , l e a di n g t o i n c r e a s e d p u bli c
a w a r e n e s s of i m p o rt a nt i s s u e s a n d p r o m pti n g r ef o r m
w h e r e it ot h e r wi s e w o ul d n ot b e p o s si bl e. S e e i bi d. F o r
i n st a n c e, 2 0 / 2 0 a n d a H o u st o n -a r e a n e w s p a p e r di d
u n d e r c o v e r i n v e sti g ati o n s, i n cl u di n g s e c r et fil mi n g, o n
T e x a s n u r si n g h o m e c o n diti o n s t h at l e d t o st at e wi d e
r ef o r m of r e g ul ati o n s g o v e r ni n g n u r si n g h o m e s. 3 T h e
i m p o rt a n c e of r e c o r di n g t e c h n ol o g y i n t h e s e a n d
n u m e r o u s ot h e r e x a m pl e s c a n n ot b e o v e r st at e d — it i s
f a r e a si e r t o d e n y o r o bf u s c at e w r o n g d oi n g b a s e d o nl y
o n t h e a c c o u nt of a r e p o rt e r t h a n it i s t o d e n y w h at all
c a n h e a r o r s e e f r o m o n e’ s o w n r e c o r d e d w o r d s a n d
d e e d s.
2. A s t e c h n ol o g y e v ol v e d, j o u r n ali st s a n d citi z e n s
di s c o v e r e d m o r e t o ol s t o e x p o s e w r o n g d oi n g. A n d s u c h
t e c h n ol o g y h a s p r o vi d e d i n si g ht i nt o t h at w hi c h
ot h e r wi s e w o ul d h a v e b e e n u n k n o w n, b ot h i n t h e
U nit e d St at e s a n d a b r o a d. F o r e x a m pl e, a cti vi st
j o u r n ali st s oft e n o p e r at e wit hi n s o ci al o r p oliti c al
S e e, e. g. , L y ri s s a C. B a r n ett, N ot e, I nt r u si o n a n d t h e
I n v e sti g ati v e R e p o rt e r , 7 1 T e x. L. R e v. 4 3 3, 4 3 3-4 3 4 ( 1 9 9 2) .
3

7
m o v e m e nt s, e m b e d di n g t h e m s e l v e s
ot h e r wi s e u n a v ail a bl e i nf o r m ati o n.4

to

p r o vi d e

Wit h j u st c ell p h o n e s, citi z e n s c a n n o w p r o vi d e o r
d ri v e c o v e r a g e of e v e nt s t h e o r g a ni z e d m e di a mi g ht
h a v e mi s s e d o n t h ei r o w n . F o r e x a m pl e, “ citi z e n
j o u r n ali st s oft e n d r o v e m e di a c o v e r a g e of t h e s o-c al l e d
A r a b S p ri n g .”5 Li k e wi s e, O c c u p y N e w Y o r k Cit y
bl o g g e r s “ b r o a d c a st h o u r s a n d h o u r s of li v e r e p o rt s
f r o m Z u c otti p a r k i n t h e cit y.” K at e B ul kl e y, T h e Ri s e
of Citi z e n J o u r n ali s m , T h e G u a r di a n ( J u n e 1 0, 2 0 1 2).6
Si mil a rl y, “ citi z e n s u n d e r fi r e f r o m g o v e r n m e nt f o r c e s
i n S y ri a” u pl o a d e d vi d e o s t o Y o u T u b e t h at t h e m e di a
c o ul d n o t b e c a u s e it l a c k e d a c c e s s. I bi d. A n d i n I s r a el,
t r a diti o n al m e di a h a s b e g u n b r o a d c a sti n g citi z e n
f o ot a g e t o e x p o s e i n ci d e nt s t h at w e r e p r e vi o u sl y
c o n c e al e d. 7
S uc h
citi z e n -d ri v e n
e x p os ur e
p r o vi d e s
an
alt e r n ati v e c h a n n el of i nf o r m ati o n i n sit u ati o n s w h e r e
S e e A d ri e n n e R u s s ell, J o u r n ali s m a s A cti vi s m: R e c o di n g
M e di a P o w e r 2 ( 2 0 1 6) ( Ti m P o ol a n d t h e “ O c c u p y” m o v e m e nt);
J a s o n R a nt z, H e r e’ s H o w A ntif a U s e s T witt e r t o T h r e at e n M e a n d
t h e M e di a, F o x N e w s ( F e b. 2, 2 0 2 1) ( A ntif a m o v e m e nt). W hil e
o n e c o ul d i m a gi n e f r e e d o m of a s s o ci ati o n c o n c e r n s if j o u r n ali st s
a r e i nfilt r ati n g n o n -p u bli c v e n u e s, t h e t w o e x a m pl e s h e r e
i n v ol v e d p u bli c a ct s b y t h e m o v e m e nt s— o c c u p yi n g p u bli c
p r o p e rt y a n d d e m o n st r ati n g a n d l o oti n g i n p u bli c, r e s p e cti v el y.
4

R o b L e v e r, S o ci al M e di a C h a n gi n g P e r c e pti o n of P oli ci n g ,
A r a b N e w s ( J ul y 1 0, 2 0 1 6) , htt p s:// w w w. a r a b n e w s. c o m/ n o d e/
9 5 1 3 6 6/ c ol u m n s.
5

6
htt p s:// w w w.t h e g u a r di a n. c o m/ m e di a/ 2 0 1 2/j u n/ 1 1/ ri s e -of citi z e n -j o u r n ali s m.

B’ T s el e m’ s
C a m er a
P r oj e ct,
htt p:// w w w. bt s el e m. o r g/ vi d e o/ c d p _ b a c k g r o u n d.
7

B’ T e s el e m ,

8
t h e st at e c o nt r ol s o r i nfl u e n c e s t h e m e di a , s u c h a s
C u b a a n d C hi n a. 8 A n d i n t h e U nit e d St at e s , alt h o u g h
t h e g o v e r n m e nt d o e s n ot c o nt r ol t h e p r e s s t o t h e s a m e
d e g r e e, t h e g o v e r n m e nt f r e q u e ntl y t ri e s t o s u p p r e s s
i nf o r m ati o n a b o ut it s c o n d u ct a n d mi s b e h a vi o r .
A n d e v e n b e y o n d t h e g o v e r n m e nt ’s r e c u r ri n g
att e m pt s t o c o v e r u p o r c o n c e al it s b e h a vi o r, t h e
o r g a ni z e d m e di a c a n, vi a t h ei r c o v e r a g e c h oi c e s a n d
e dit o ri al s el e cti o n s, tilt t h e i nf o r m ati o n fl o w t o w a r d s
a p a rti c ul a r p e r s p e cti v e o r vi e w p oi nt. I n d e e d , s c h ol a r s
h a v e n ot e d t h at t h e p r e s s i s i n c r e a si n gl y h o m o g e n e o u s
in
it s
w o rl d vi e w.
S ee,
e. g.,
S uz a n ne
G a r m e nt, S c a n d al: T h e C ult u r e of
Mi st r u st i n
A m e ri c a n P oliti c s 7 4 -7 5, 8 1 -8 2 ( 1 9 9 2) . W hil e m u c h
c riti ci s m of t h e m e di a l at el y h a s i n v ol v e d i n di vi d u al s
a n d o utl et s o n b ot h t h e p a rti s a n ri g ht a n d l eft b ei n g
a c c u s e d of sl a nti n g t h e i nf o r m ati o n fl o w t o t h ei r
r e s p e cti v e a u di e n c e s, c o m p a r e T a h v. Gl o b al Wit n e s s
P u bl’ g, I n c. , 9 9 1 F. 3 d 2 3 1, 2 5 4-2 5 6 ( D. C. Ci r. 2 0 2 1)
( Sil b e r m a n, J., di s s e nti n g i n p a rt) (a r g ui n g t h at t h e r e
i s l eft-l e a ni n g bi a s i n A m e ri c a n m ai n st r e a m m e di a),
wit h S h a r o n K a n n , St ef a ni e L, S e r gi o M u n o z & Li s
P o w e r, Ri g ht -wi n g M e di a E c o s y st e m h a s D o mi n at e d
t h e N ati o n al I m mi g r ati o n N a r r ati v e, M e di a M att e r s
f o r A m e ri c a ( A p ril 2 9, 2 0 2 1) ( hi g hli g hti n g “t h e s p r e a d
of a D ail y Wi r e a rti cl e” “[ a] s o n e e x a m pl e of h o w ri g ht l e a ni n g p o st s d o mi n at e t h e c o n v e r s ati o n a n d

S e e K at h a ri n e M. Vill al o b o s, Di git al O p p r e s si o n i n C u b a
a n d C hi n a: A C o m p a r ati v e St u d y of I C C P R Vi ol ati o n s , 2 4 J.
T r a n s n at’l L. & P ol’ y 1 6 1, 1 7 0 -1 7 2 ( 2 0 1 5) .
8

9
c o nt ri b ut e t o a n e c h o c h a m b e r of mi si nf o r m ati o n”), 9
t h e m e di a sl a nt oft e n t r a n s c e n d s p a rti s a n vi e w s a n d
m a y b e a f u n ct i o n of cl a s s, r a c e, g e o g r a p h y, o r a n y
ot h e r e dit o ri al p e r s p e cti v e t h at c a n s k e w n e w s
c o v e r a g e. T hi s of c o u r s e i s n ot hi n g n e w, a n d t h e u s u al
a n s w e r i s t o h a v e c o m p eti n g v oi c e s t o b al a n c e o ut a n y
s k e w e d p e r s p e cti v e .
B ut a d di n g m o r e a n d m o r e
di v e r s e citi z e n v oi c e s a n d p e r s p e cti v e s, a n d m o r e
di v e r s el y g at h e r e d i nf o r m ati o n of p u bli c i nt e r e st
g e n e r all y, h el p s off s et a n y i n stit uti o n al bi a s e s t h at
m a y e xi st a c r o s s t h e m aj o r m e di a o utl et s.
3. R e c e nt e x a m pl e s of u n a ut h o ri z e d r e c o r di n g s of
n e w s w o rt h y e v e nt s i n t hi s c o u nt r y a b o u n d. F o r
e x a m pl e, t h e 2 0 1 6 p r e si d e nti al c a m p ai g n w a s t h r o w n
i nt o t u r m oil b y t h e r el e a s e of a 2 0 0 5 s e c r et r e c o r di n g
of D o n al d T r u m p , t al ki n g “i n v ul g a r t e r m s a b o ut
ki s si n g, g r o pi n g a n d t r yi n g t o h a v e s e x wit h w o m e n .”1 0
A n d w e l e a r n e d m u c h a b o ut t h e J a n u a r y 6 C a pit ol
Ri ot f r o m c ell p h o n e vi d e o s t h at w o ul d h a v e b e e n
ill e g al a n d t h u s u n k n o w n u n d e r M a s s a c h u s ett s l a w. 1 1

htt p s:// w w w. m e di a m att e r s. o r g/i m mi g r ati o n/ ri g ht -wi n g m e di a -e c o s y st e m -h a s -d o mi n at e d -n ati o n al -i m mi g r ati o nn a r r ati v e.
9

D a vi d A. F a h r e nt h ol d, T r u m p R e c o r d e d H a vi n g E xt r e m el y
L e w d C o n v e r s ati o n A b o ut W o m e n I n 2 0 0 5 , T h e W a s hi n gt o n P o st
( O ct. 8, 2 0 1 6), htt p s:// w w w. w a s hi n gt o n p o st. c o m/ p oliti c s/t r u m p r e c o r d e d -h a vi n g -e xt r e m el y -l e w d-c o n v e r s ati o n -a b o ut -w o m e n -i n2 0 0 5/ 2 0 1 6/ 1 0/ 0 7/ 3 b 9 c e 7 7 6 -8 c b 4 -1 1 e 6 -bf 8 a -3 d 2 6 8 4 7 e e e d 4 _
st o r y. ht ml.
10

1 1 S e e, e. g. , I a n B ell, W e R e c r e at e d t h e C a pit ol Ri ot T h r o u g h
C ell p h o n e Vi d e o s a n d It’ s T e r rif yi n g , V I C E ( A p ril 1 4, 2 0 2 1, 9: 0 4
A M) ,
htt p s:// w w w. vi c e. c o m/ e n/ a rti cl e/ p k b e 4 b/t h e -c a pit ol -ri ot t h r o u g h-c ell -p h o n e -vi d e o s -t e r rif yi n g; P h o n e f o ot a g e r e v e al s

10
I n s h o rt, “t h e m o d e s of j o u r n ali s m a n d o u r
d efi niti o n of w h o i s a m o d e r n j o u r n ali st a r e * * *
c h a n gi n g. ” 1 2 A n d , a s t hi s C o u rt h a s r e c o g ni z e d,
“ b e y o n d q u e sti o n, t h e r ol e of t h e m e di a i s i m p o rt a nt;
a cti n g a s t h e e y e s a n d e a r s of t h e p u bli c, t h e y c a n b e a
p o w e rf ul a n d c o n st r u cti v e f o r c e, c o nt ri b uti n g t o t h e
r e m e di al a cti o n i n t h e c o n d u ct of p u bli c b u si n e s s.”
H o u c hi n s v. K Q E D, I n c. , 4 3 8 U. S. 1, 8 ( 1 9 7 8) ( pl u r alit y
o pi ni o n) ( cl e a n e d u p).1 3 B ut l a w s li k e M a s s a c h u s ett s’ s ,
w h et h e r a p pli e d t o t r a diti o n al m e di a, alt e r n ati v e
m e di a , o r citi z e n s , c ri p pl e “[t] h e p ri m a r y p u r p o s e of
t h e c o n stit uti o n al g u a r a nt e e of a f r e e p r e s s” — “t o
c r e at e a f o u rt h i n stit uti o n o ut si d e t h e G o v e r n m e nt a s
a n a d diti o n al c h e c k o n t h e t h r e e offi ci al b r a n c h e s.”
P o tt e r St e w a rt, O r of t h e P r e s s , 2 6 H a sti n g s L. J. 6 3 1,
6 3 4 ( 1 9 7 5) .

c h a oti c s c e n e s i n si d e U S C a pit ol , B B C N e w s ( J a n. 7, 2 0 2 1),
htt p s:// w w w. b b c. c o m/ n e w s/ a v/ w o rl d -u s -c a n a d a -5 5 5 8 2 8 8 6.
J o h n J. D o u g h e rt y, O b si di a n Fi n a n ci al G r o u p, L L C v. C o x
a n d R ef o r m ul ati n g S hi el d L a w s t o P r ot e ct Di git al J o u r n ali s m i n
a n E v ol vi n g M e di a W o rl d , 1 3 N. C. J. L. & T e c h. O n. 2 8 7, 2 9 0
( 2 0 1 2).
12

S e e al s o Di e n e s, P r ot e cti n g I n v e sti g ati v e J o u r n ali s m , at
1 1 4 3 ( “ U n d e r c o v e r j o u r n ali s m * * * all o w s t h e m e di a t o p e rf o r m it s
r ol e a s t h e e y e s a n d e a r s of t h e p e o pl e, t o p e rf o r m a c h e c ki n g
f u n cti o n o n g o v e r n m e nt.”).
13

11
I I. If
B arre d
fr o m
M a ki n g
U n di s cl o s e d
R e c o r di n g s,
th e
P u bli c
Will
L os e
an
I m p o r t a n t P r o t e c ti o n A g ai n s t C ri m e a n d
O t h e r W r o n g d oi n g .
B e si d e s p r o vi di n g a c h e c k o n g o v e r n m e nt,
u n di s cl o s e d r e c o r di n g s c a n h el p p r ot e ct vi cti m s of
c ri m e o r p r e v e nt f ut u r e c ri m e. S e e S a r a h M o r g a d o,
F r o m “H e S ai d, S h e S ai d ” t o “H e S ai d, S h e -a n d -H e r I p h o n e -S ai d ”:
Fl o ri d a’s
All -P a rt y
C o n s e nt
R e q ui r e m e nt N e e d s a n U p d at e , 1 4 F I U L. R e v. 6 7 7,
6 9 4, 6 9 8 ( 2 0 2 1) .1 4 S u c h r e c o r di n g s c a n al s o “ r e v e al
e m pl o y e e mi s c o n d u ct, p oliti c al m alf e a s a n c e, b ull yi n g,
r a ci s m, o r u n et hi c al b u si n e s s d e ali n g s. ” I d . at 6 9 8. F o r
e x a m pl e, u n di s cl o s e d r e c o r di n g s h a v e h a d t h e
f oll o wi n g p o siti v e eff e ct s:


a G e o r gi a w o m a n o bt ai n e d e vi d e n c e of h e r
n e u r ol o gi st ’ s i n a p p r o p ri at e t o u c hi n g;1 5



a n u n di s cl o s e d r e c o r di n g of a M ai n e b u si n e s s
m e eti n g u n c o v e r e d i m p r o p e r i nfl u e n c e i n a n
e n e r g y d e al ;1 6

S u c h r e c o r di n g s al s o f a cilit at e “t h e i nt r o d u cti o n of r eli a bl e
e vi d e n c e, ai di n g t h e c o u rt i n t h e t r ut h -fi n di n g p r o c e s s.” M o r g a d o,
s u p r a, at 6 8 8 ( citi n g L o p e z v. U nit e d St at e s , 3 7 3 U. S. 4 2 7, 4 3 9
( 1 9 6 3)). T h at’ s b e c a u s e “ a c o n v e r s ati o n, w h e r e a p e r s o n c a n h e a r
t h e e x a ct w o r d s a p e r s o n utt e r e d, wit h i nfl e cti o n, t o n e, a n d
v ol u m e, i s m u c h m o r e r eli a bl e a n d c o m p elli n g e vi d e n c e * * * t h a n
t h e t e sti m o n y a n d/ o r n ot e s of a c o n v e r s ati o n p a rti ci p a nt.” I bi d .
14

D a n n y R o b bi n s, H e W a s C a u g ht o n Vi d e o, b ut G e o r gi a
D o ct o r K e pt H i s M e di c al Li c e n s e , Atl a nt a J. C o n st. ( A p r. 2 7,
2 0 1 8) , htt p s:// w w w. aj c. c o m/ c a u g ht _ o n _ vi d e o _ b ut _ k e pt _ g e o r gi a _
m e di c al _li c e n s e/.
15

1 6 T u x T u r k el, S e c r et R e c o r di n g s P oi nt t o I m p r o p e r I nfl u e n c e
b y T o p U M ai n e Offi ci al i n L u c r ati v e P o w e r C o nt r a ct , P o rtl a n d

12


a
Mi n n e s ot a w o m a n’ s s e c r et r e c o r di n g of
c o n v e r s ati o n s
wit h a
m e di c al e x a mi n e r
r e v e al e d a fl a w e d d e at h i n v e sti g ati o n a n d
o v e r si g ht p r o bl e m s wit hi n t h e offi c e .1 7

A n ot h e r, m o r e f a m o u s, e x a m pl e i s t h e H alli b u rt o n
w hi stl e bl o w e r,
To ny
M e n e n d e z.
See
Jesse
Ei si n g e r, T h e
Man
W h o Bl e w t h e
W hi stl e o n
H alli b u rt o n , T h e
Atl a nti c ( A p r. 2 3, 2 0 1 5).1 8 H e
s e c r etl y t a p e d c o m p a n y m e eti n g s t o g at h e r e vi d e n c e
r e v e ali n g t h e c o m p a n y’ s n u m e r o u s vi ol ati o n s of S E C
r ul e s. I bi d .1 9 A n d t h e e x a m pl e s of c ri m e s r e c o r d e d b y
i n di vi d u al s, p ri v at e o r b u si n e s s s u r v eill a n c e c a m e r a s
c at c hi n g m u g gi n g s, o r el e v at o r c a m e r a s c at c hi n g
s e x u al a s s a ult , a r e t o o n u m e r o u s t o cit e.
B ut i n M a s s a c h u s ett s, all of t h e s e r e c o r di n g s w o ul d
h a v e b e e n ill e g al a n d t h u s c o ul d n ot h a v e p r ot e ct e d
t h e aff e ct e d i n di vi d u al s — o r t h e p u bli c at l a r g e — f r o m
t h e m alf e a s a n c e t h o s e s e c r et r e c o r di n g s r e v e al e d .
Pr ess
H e r al d ,
htt p s:// w w w. p r e s s h e r al d. c o m/ 2 0 1 8/ 0 2/ 0 4/
r e c o r di n g s -p oi nt -t o-i m p r o p e r-i nfl u e n c e-b y -t o p-u m ai n e -e x e c -i nl u c r ati v e-p o w e r -c o nt r a ct/ (l a st u p d at e d F e b. 5, 2 0 1 8).
S e c r et
R e c o r di n g s
R e v e al
Fl a w e d
D e at h
I n v e sti g ati o n , F O X 9
K M S P ( N o v. 1 6, 2 0 1 6, 3: 5 3 P M) ,
htt p:// w w w.f o x 9. c o m/ n e w s/i n v e sti g at o r s/ s e c r et -r e c o r di n g s r e v e al -fl a w e d-d e at h -i n v e sti g ati o n.
17

htt p s:// w w w.t h e atl a nti c. c o m/ b u si n e s s/ a r c hi v e/ 2 0 1 5/ 0 4/t h e m a n -w h o -bl e w -t h e-w hi stl e -o n -h alli b u rt o n/ 3 9 1 2 1 5/.
18

Of c o u r s e, p u bli c v e r s u s p ri v at e r e c o r di n g s r ai s e diff e r e nt
c o n c e r n s u n d e r a r e a s o n a bl e -e x p e ct ati o n -of -p ri v a c y st a n d a r d.
A n d c o n c e r n s a b o ut p ri v a c y i n s o m e n o n -p u bli c sit u ati o n s
c e rt ai nl y d o n ot a p pl y t o b e h a vi o r i n p u bli c o r i n ot h e r
ci r c u m st a n c e s w h e r e o n e h a s n o r e a s o n a bl e e x p e ct ati o n of
p ri v a c y, s u c h a s w h e r e a d o ct o r i s m ol e sti n g a p ati e nt.
19

13
I I I.

Li k e L a w s in M a n y O t h e r J u ri s di c ti o n s,
M a s s a c h u s e t t s’ s
La w
C ri mi n ali z e s
B e h a vi o r t h a t i s C o m m o n pl a c e i n O u r
T e c h n ol o g y -S a t u r a t e d S o ci e t y .

A s ill u st r at e d
a bilit y t o r e c o r d
c o m m o n. A n d l a
m a k e o r di n a r y b e

b y t h e e x a m pl e s cit e d a b o v e, t h e
o u r s u r r o u n di n g s i s i n c r e a si n gl y
w s li k e t h e o n e i n M a s s a c h u s ett s
h a vi o r c ri mi n al.

F o r e x a m pl e, g i v e n t h e s p at e of c hil d a b u s e
i n st a n c e s b y c a r e gi v e r s, m a n y p a r e nt s h a v e s o-c all e d
“ n a n n y c a m e r a s” — d e vi c e s t h a t c a n r e c o r d c hil d r e n
a n d c a r e gi v e r s w hil e p a r e nt s a r e a w a y. S e e R a u vi n
J o hl, R e a s s e s si n g
Wi r et a p a n d
E a v e s d r o p pi n g
St at ut e s: M a ki n g O n e -P a rt y C o n s e nt t h e D ef a ult , 1 2
H a r v. L. & P ol ’y R e v. 1 7 7, 1 8 8 ( 2 0 1 8) . S o m e p e o pl e
h a v e d a s h b o a r d c a m e r a s o n t h ei r c a r s. I bi d . A n d n e w
h o m e s oft e n h a v e v a ri o u s t e c h n ol o gi e s, s u c h a s vi d e o
d o o r b ell s w hi c h r e c o r d b ot h vi d e o a n d a u di o w h e n e v e r
s o m e o n e a p p r o a c h e s t h e d o o r. I bi d . All of t h e s e c o ul d
p ot e nti all y m a k e o n e u n witti n gl y a c ri mi n a l i n
M a s s a c h u s ett s a n d si mil a r j u ri s di cti o n s.
If t h at w e r e n ot e n o u g h, st at ut e s f o r bi d di n g
u n di s cl o s e d r e c o r di n g s oft e n h a r m t h e v e r y p e o pl e t h e
l a w s h o ul d p r ot e ct, a s s h o w n b y t h e f oll o wi n g
e x a m pl e s:


A s p e ci al n e e d s st u d e nt s e c r etl y r e c o r d e d o n hi s
s c h o ol i P a d s o m e o n e b ull yi n g hi m, r e s ulti n g i n
t h e s p e ci al n e e d s st u d e nt — n ot t h e b ull y — b ei n g

14
i nt e r r o g at e d b y p oli c e a n d c h a r g e d
f el o n y.2 0

wit h a



A c oll e g e st u d e nt i n M a r yl a n d w a s c h a r g e d
wit h t w o f el o ni e s f o r li v e st r e a mi n g a m e eti n g
wit h hi s c o n g r e s s m a n. 2 1



A m ot h e r w a s c h a r g e d wit h a f el o n y af t e r
r e c o r di n g a c o n v e r s ati o n wit h h e r d a u g ht e r’ s
s c h o ol p ri n ci p al. 2 2 T h e s a m e h a p p e n e d t o a
f at h e r w h o r e c o r d e d a c o n v e r s ati o n wit h a
s c h o ol p ri n ci p al t o fi n d o ut a b o ut w h et h e r hi s
d a u g ht e r w a s b ei n g b ulli e d. 2 3



A n Illi n oi s t hi rt e e n-y e a r -ol d w a s c h a r g e d wi t h
a f el o n y aft e r r e c o r di n g a c o n v e r s ati o n wit h hi s
s c h o ol p ri n ci p al. 2 4

P at ri c k F r y e, Di s a bl e d B o y R e c o r d s B ulli e s T o r m e nti n g
Hi m, P oli c e C h a r g e Hi m wit h Ill e g al Wi r et a p pi n g , I n q ui sit r ( N o v.
1 7,
2 0 1 6) , htt p s:// w w w.i n q ui sit r. c o m/ 1 2 0 9 3 6 1/ di s a bl e d -b o y r e c o r d s -b ulli e s -t o r m e nti n g -hi m -p oli c e -c h a r g e -hi m -wit h -ill e g alwi r et a p pi n g/.
20

S e e S a r a h A s h, S U St u d e nt F a ci n g F el o n y C h a r g e s f o r Wi r e
T a p pi n g , W M D T
( F e b. 1 4, 2 0 1 9) , htt p s:// w w w. w m dt. c o m/
2 0 1 9/ 0 2/ s u -st u d e nt -f a ci n g-f el o n y-c h a r g e s -f o r-wi r e -t a p pi n g/.
21

S e e B a r r y Si m m s, M o m F a c e s F el o n y Wi r et a p pi n g C h a r g e s
Aft e r R e c o r di n g C o n v e r s ati o n wit h P ri n ci p al , W B A L T V ( D e c. 7,
2 0 1 7, 1 0: 4 2 A M) , htt p s:// w w w. w b alt v. c o m/ a rti cl e/ m o m -f a c e sf el o n y-wi r e t a p pi n g-c h a r g e s -aft e r -r e c o r di n g -c o n v e r s ati o n -wit h p ri n ci p al/ 1 4 3 7 8 4 5 3.
22

S e e P a’ s Wi r et a p pi n g L a w i s T o o R e st ri cti v e , Y o r k D ail y
R e c. ( A u g. 2 2, 2 0 1 6, 9: 2 7 A M), htt p s:// w w w. y d r. c o m/ st o r y/
o pi ni o n/ e dit o ri al s/ 2 0 1 6/ 0 8/ 2 2/ p a s -wi r et a p pi n g -l a w-t o or e st ri cti v e -e dit o ri al/ 8 8 9 9 7 0 2 0/.
23

24
A u sti n
B e r g,
Illi n oi s 1 3 -Y e a r -Ol d
C h ar ge d
wit h
E a v e s d r o p pi n g F el o n y f o r R e c o r di n g M e eti n g wit h P ri n ci p al , Ill.

15


A w hi stl e bl o w e r w h o r e c o r d e d hi s
c o n v e r s ati o n wit h hi s s u p e ri o r t o
e vi d e n c e of t h e s u p e ri o r a d mitti n g t o
et hi c s vi ol ati o n s w a s hi m s elf c h a r g e d
f el o n y. 2 5

p ho ne
p r o vi d e
v a ri o u s
wit h a

A s t h e s e e x a m pl e s s h o w, p u bli c offi ci al s a r o u n d t h e
N ati o n
b eli e v e t h e y c a n r o uti n el y c ri mi n ali z e
u n di s cl o s e d r e c o r di n g of e v e nt s b y p ri v at e citi z e n s
t h at cl e a rl y i m pli c at e t h e p u bli c’ s i nt e r e st i n
t r a n s p a r e n c y, g o o d g o v e r n m e nt , a n d i n di vi d u al
li b e rt y. A c c o r di n gl y,
citi z e n s a n d g o v e r n m e nt s
t h r o u g h o ut t h e N ati o n b a dl y n e e d t h e C o u rt’ s
g ui d a n c e o n w h e n t h e Fi r st A m e n d m e nt d o e s ( o r d o e s
n ot ) p r ot e ct s u c h r e c o r di n g s.

P ol’ y ( J u n e 2 1, 2 0 1 8), htt p s:// w w w.illi n oi s p oli c y. o r g/illi n oi s -1 3 y e a r -ol d -c h a r g e d -wit h -e a v e s d r o p pi n g -f el o n y-f o r-r e c o r di n g m e eti n g -wit h -p ri n ci p al.
Ri c k L e e, J u d g e O r d e r s Wi r et a p pi n g C h a r g e Di s mi s s e d
A g ai n st U nilif e W hi stl e -Bl o w e r , Y o r k D ail y R e c. ( J ul y 8, 2 0 1 5),
htt p s:// w w w. y d r. c o m/ st o r y/ n e w s/l o c al/ 2 0 1 5/ 0 7/ 0 8/j u d g e -o r d e r s wi r et a p pi n g -c h a r g e -di s mi s s e d -a g ai n st -u nilif e -w hi stl e/ 7 2 2 4 7 9 2
2/ ?f r o m = gl o b al & s e s si o n K e y = & a ut ol o gi n =
( w hil e t h e j u d g e
o r d e r e d di s mi s s al, t h e di st ri ct att o r n e y’ s offi c e a p p e al e d) .
25

16
C O N C L U SI O N
A s J u sti c e B r a n d ei s wi s el y a n d w r yl y o b s e r v e d
o v e r a c e nt u r y a g o, “ [ p]u bli cit y i s j u stl y c o m m e n d e d a s
a r e m e d y f o r s o ci al a n d i n d u st ri al di s e a s e s. S u nli g ht
i s s ai d t o b e t h e b e st of di si nf e ct a nt s; el e ct ri c li g ht t h e
m o st effi ci e nt p oli c e m a n.” L o ui s D. B r a n d ei s, Ot h e r
P e o pl e’ s M o n e y a n d H o w B a n k e r s U s e It 9 2 ( 1 9 1 4).
W e r e h e ali v e t o d a y, h e mi g ht w ell h a v e e xt e n d e d hi s
e x a m pl e s t o i n cl u d e mi ni at u ri z e d t a p e r e c o r d e r s a n d
m o bil e -p h o n e c a m e r a s. T h e p etiti o n s h o ul d b e g r a nt e d
s o t h at m o r e Fi r st A m e n d m e nt s u nli g ht m a y b e s h e d
o n a s o ci et y d e s p e r at el y i n n e e d of it .
R e s p e ctf ull y s u b mitt e d.

J u n e 1 6 , 2 0 21

G E N E C. S C H A E R R
C o u n s el of R e c o r d
E R I K S. J A F F E
H. C H R I S T O P H E R B A R T O L O M U C C I
H A N N A H C. S M I T H
K A T H R Y N E. T A R B E R T
J O S H U A J. P R I N C E
SC H A E R R |JAFF E L L P
1 7 1 7 K St r e et, N W, S uit e 9 0 0
W a s hi n gt o n, D C 2 0 0 0 6
( 2 0 2) 7 8 7-1 0 6 0
g s c h a e r r @ s c h a e r r -j aff e. c o m

